Morningside Heights Legal Services, Inc.

435 West 116th Street, Room 831, New York, NY 10027
T 212.854.4291 F 212.854.3554

June 2, 2020
VIA E-FILING AND FIRST-CLASS MAIL

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

PennEast Pipeline Company LLC v. State of New Jersey et al.
No. 19-1039

Dear Mr. Harris:
The State of New Jersey has filed a brief in opposition to Petitioner PennEast’s
Petition for Writ of Certiorari in the above-captioned case. Respondent New Jersey
Conservation Foundation (NJCF) agrees with the State that the Third Circuit’s
decision is correct and that this Court should deny certiorari. To avoid duplicative
briefing, NJCF will not be filing a separate brief in opposition.
Thank you for your kind assistance.
Sincerely,
Jennifer Danis
Counsel of Record for Respondent
New Jersey Conservation Foundation
Edward Lloyd
Counsel for Respondent
New Jersey Conservation Foundation

